LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 6, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-720: UNITED STATES OF AMERICA V. RILEY BRIONES, JR.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition
referenced above contains 3,557 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 6th day of April 2020.

